CERTIFICATE OF SERVICE
NO. 20-1668
City of Tahlequah, et al.
Petitioners,
v.
Austin P. Bond, as Special Administrator of the Estate of Dominic F. Rollice, Deceased
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the THE
NATIONAL SHERIFFS’ ASSOCIATION MOTION FOR LEAVE TO FILE AND AMICUS BRIEF AT PETITION
STAGE IN SUPPORT OF PETITIONERS, by mailing three (3) true and correct copies of the same by Fedex
2-Day, prepaid for delivery to the following addresses.
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for City of Tahlequah, Oklahoma, et al.

Robert M. Blakemore
Smolen Roytman
701 South Cincinnati Avenue
Tulsa, OK 74119
(918) 585-2667
bobblakemore@ssrok.com
Counsel for Respondent

Lucas DeDeus

June 17, 2021
SCP Tracking: Champagne-260 Judge Edward Dufresne Parkway-Cover Cream

